              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Special Report
Questioned, Unresolved and Potentially
Unallowable Costs Incurred by Los Alamos
National Laboratory During Fiscal Year
2010




OAS-L-13-02                     November 2012
                                   Department of Energy
                                     Washington, DC 20585

                                        November 20, 2012


MEMORANDUM FOR THE ADMINISTRATOR, NATIONAL NUCLEAR SECURITY
               ADMINISTRATION



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Special Report on "Questioned, Unresolved and
                         Potentially Unallowable Costs Incurred by Los Alamos National
                         Laboratory During Fiscal Year 2010"

BACKGROUND

Since June 2006, Los Alamos National Security, LLC, has operated the National Nuclear Security
Administration's Los Alamos National Laboratory (Los Alamos) for the Department of Energy.
Los Alamos is a multi-program laboratory with critical national security responsibilities, including
research and a limited production mission that help to ensure the safety, security and reliability of
the nation's nuclear weapons stockpile. During Fiscal Year (FY) 2010, Los Alamos incurred and
claimed costs of $2.2 billion.

As an integrated management and operating contractor, Los Alamos' financial accounts are
integrated with those of the Department, and the results of financial transactions are reported
monthly according to a uniform set of accounts. Los Alamos is required by its contract to account
for all funds advanced by the Department, safeguard assets in its care, and claim only allowable
costs. Further, Los Alamos is required to account for costs incurred annually on its Statement of
Costs Incurred and Claimed (SCIC).

On November 19, 2012, we issued a separate contract report on the Assessment of Audit Coverage
of Cost Allowability for Los Alamos National Laboratory during Fiscal Year 2010 under
Department of Energy Contract No. DE-AC52-06NA25396 (OAS-V-13-01, November 2012). The
objectives of the assessment were to determine whether questioned costs and internal control
weaknesses impacting allowable costs identified in prior audits and reviews had been adequately
resolved, and whether Los Alamos conducted or arranged for audits of its subcontractors when
costs incurred were a factor in determining the amount payable to a subcontractor. Among other
observations, the assessment identified specific costs and internal control issues that had yet to be
resolved under the contract.
CONCLUSIONS AND OBSERVATIONS

We identified approximately $50,000 in questioned and unresolved costs claimed by Los Alamos
during FY 2010. We also identified nearly $24 million in subcontract costs requiring audit; nearly
$1.4 million in unresolved questioned subcontract costs; and, approximately $10.7 million in
unresolved costs pertaining to a potential Anti-Deficiency Act violation. Finally, we identified
more than $434 million in previously reported unresolved costs from prior years.

The resolution of questioned and unallowable costs ensures that costs charged to the Government
are allowable, makes certain that taxpayer's money is spent wisely, and has the potential to free
significant funds that would be better spent on Los Alamos' mission critical program activities.

                                   Unresolved Questioned Costs

NNSA had not resolved approximately $50,000 in costs questioned by Los Alamos' internal audit
function during FY 2010 (see Attachment 1). The unresolved questioned costs were identified
during the audit of Los Alamos' Acquisition Services Management (ASM) reviewed subcontracts.
As of July 2012, the contracting officer and NNSA's Office of Field Financial Management
(OFFM) were working with Los Alamos to resolve the questioned costs.

                 Unresolved Subcontract Costs Pending Review by Internal Audit

We identified more than $6 million in subcontract costs incurred during FY 2010 that we
considered unresolved pending review by Internal Audit based upon weaknesses noted in the ASM
subcontract audit function and strategy. Los Alamos management reassigned the responsibility for
the subcontract audit function from ASM to Internal Audit as of August 2010 following an
assessment of ASM's subcontract audit function in which Internal Audit concluded that ASM's
subcontract audit function was ineffective. The Office of Inspector General also identified
material weaknesses in ASM's subcontract audit strategy during its review of FY 2008 and
FY 2009 costs incurred and claimed in Report on Audit Coverage of Cost Allowability for Los
Alamos National Laboratory during FYs 2008 and 2009 under Department of Energy Contract
No. DE-AC52-06NA25396 (OAS-V-12-05, April 2012). In our April 2012 report, we
recommended that NNSA reevaluate Los Alamos' audit strategy. Management concurred with our
recommendation and is reviewing a revised subcontract audit strategy recently proposed by Los
Alamos.

In addition, we found over $17 million in subcontract costs incurred during FY 2010 requiring
audit that had not been audited. Los Alamos deferred audit of these costs until after the contract
under which the costs were incurred closed on December 31, 2010. These costs are currently
under audit by Internal Audit, thus, we reported these costs as unresolved pending audit
completion (see Attachment 1).

               Unresolved Questioned Subcontract Costs from FY 2003 to FY 2010

We reported nearly $1.4 million in prior years subcontract costs as unresolved questioned costs.
During 2011, Internal Audit identified approximately $1.5 million in additional questioned
subcontract costs that were incurred between FY 2003 and FY 2010. For example, based on an
                                                 2
evaluation of actual indirect rates for FYs 2007, 2008 and 2009, Internal Audit questioned more
than $386,000 of indirect costs billed and paid to one subcontractor. As of May 2012, nearly $1.4
million of the approximate $1.5 million in subcontract costs remain unresolved (see Attachment 1).
About $80,000 in subcontract costs were resolved primarily through reimbursements to Los
Alamos.
                               Potential Anti-Deficiency Act Violation

During the course of our assessment, we noted that the Department was reviewing a potential Anti-
Deficiency Act (ADA) violation of approximately $10.7 million. The potential violation arose
from Los Alamos expending nearly $10.3 million more than appropriated on the Waste
Management Risk Mitigation (WMRM) line item construction project. The total project costs
exceeded original estimates due to Los Alamos having to correct defective work performed by the
general contractor hired to design and construct the WMRM project. Therefore, Los Alamos filed
a claim against the general contractor in court to recoup costs for correcting defective work. Los
Alamos continued to incur costs on the WMRM project and legal fees of about $425,000. The
lawsuit filing the claim was unsuccessful and Los Alamos did not receive any funds from the legal
proceedings. As of September 2012, these costs were unresolved, and therefore, we reported the
nearly $10.3 million of costs incurred in excess of approved funding and the $425,000 in legal fees
associated with the WMRM project as unresolved costs (see Attachment 2).

                               Unresolved Costs from Prior Years

In our April 2012 contract report, we identified more than $439 million in prior year unresolved
and questioned costs (see Attachment 2). These costs included approximately $437 million in FY
2007 to FY 2009 unresolved subcontract costs pending audit or review by Internal Audit, and
nearly $2 million questioned costs.

While some progress had been made, a significant percentage of the costs remained unresolved as
of the completion of our review. In February 2012, Internal Audit completed an audit of nearly $5
million in subcontract costs from FY 2007. During its review, Internal Audit did not identify any
questioned costs; therefore, we considered the approximately $5 million in previously reported
subcontract costs requiring audit as resolved. In May 2012, Internal Audit submitted an action
plan to the Los Alamos Site Office (Site Office) proposing an audit strategy to address unresolved
subcontract costs reviewed by ASM and the subcontracts requiring an audit from FY 2007. As of
August 2012, the Site Office had not made a determination on the adequacy of the action plan
proposed by Internal Audit. We also noted that approximately $57,000 in unresolved questioned
FY 2008 and 2009 costs identified by Internal Audit had been resolved. The contracting officer
and OFFM continue to work with Los Alamos to resolve the remaining costs; therefore, we
considered approximately $434 million remaining costs as unresolved costs.

               NNSA Field Chief Financial Officer Signature of Los Alamos SCIC

The NNSA Field Chief Financial Officer (CFO) signed the FY 2010 Los Alamos SCIC in
September 2012. The CFO noted that Los Alamos had made significant improvements to its
internal controls to address deficiencies cited in his December 2011 memorandum, in which he
qualified his approval of the FY 2007 through FY 2009 SCICs. The memo further stated that the

                                                3
institutional controls were generally adequate to minimize the risk of incurring unallowable or
unreasonable costs, and identified corrective actions to address current and previous years'
concerns.

In our contract report on costs incurred by Los Alamos during FY 2010, we recommended that the
Manager, Los Alamos Site Office, direct the contracting officer to make a determination regarding
the allowability of questioned and unresolved costs identified in this report and recover those costs
determined to be unallowable. Additionally, we recommended that the NNSA Field CFO ensure
that Los Alamos completes corrective actions to address CFO concerns.

These recommendations, if fully implemented, should help NNSA recover funds that would be
better spent on program activities and improve institutional controls to eliminate the recurrence of
similar questioned and unallowable costs in the future.

MANAGEMENT AND AUDITOR COMMENTS

NNSA management concurred with the findings and recommendations, and identified corrective
actions. In addition to making a determination as to the allowability of the questioned subcontract
costs, management committed to the contracting officer continuing efforts to review and resolve
other previously identified questioned costs. Further, management said the contracting officer will
monitor the status of contractor efforts to complete subcontract audits. Management also plans to
continue to monitor the contractor's progress in addressing concerns raised by the NNSA Field
CFO. Finally, the Director, Office of Financial Risk, Policy, and Controls stated that they continue
to work with the General Counsel's office and NNSA in assessing the potential Anti-Deficiency
Act violation.

Management's comments and planned actions are responsive to our recommendations.
Management's verbatim comments are attached (See Attachments 3 and 4).

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Principal Deputy Administrator, National Nuclear Security Administration
    Chief of Staff




                                                  4
                                                                                                      Attachment 1


    Summary of Questioned Costs, Unresolved Costs, and Unresolved Costs Pending Audit
                                    Fiscal Year 2010
                          Los Alamos National Security, LLC
                          Contract No. DE-AC52-06NA25396

                         Questioned Costs Identified by Internal Audit
  Questioned Costs Category         Questioned Costs           Resolved                                 Unresolved
Time and Labor Discrepancies                       $5,189              $5,189                                    $0
Employee Relocation                              $20,683             $20,683                                     $0
Misapplied LDRD Charges                         $822,705            $822,705                                     $0
Employee Travel                                      $237                $237                                    $0
                             1
Subcontractor Billing Errors                    $311,209            $311,209                                     $0
Subcontractor Invoice2                          $174,335            $174,335                                     $0
ASM's Subcontract Reviews                        $50,317                   $0                               $50,317
Total Questioned Costs                                     $1,384,675                $1,334,358                $50,317

                  Unresolved Subcontract Costs Pending Review by Internal Audit
                                            Subcontract Reviews                Subcontracts             Unresolved
                                                 by ASM                        Reviewed by               Pending
       Cost Category                          during FY 2010                  Internal Audit             Review
ASM's Subcontract Reviews                            $10,845,485                    $4,588,892            $6,256,593
FY 2010 Subcontract Audit
  In Process                                                                                             $17,491,046
Total Costs                                              $10,845,485                 $4,588,892          $23,747,639



                 Questioned Subcontract Costs Identified by Internal Audit
          Fiscal Year             Questioned Costs            Resolved                                  Unresolved
Fiscal Year 2010                               $35,322             $29,614                                   $5,708
Fiscal Year 2009                               $84,767               $6,144                                 $78,623
Fiscal Year 2008                              $116,158             $18,255                                  $97,903
Fiscal Year 2007                              $210,287                   $0                                $210,287
Fiscal Year 2006                              $135,345                   $0                                $135,345
Fiscal Year 2005                              $199,911                   $0                                $199,911
Fiscal Year 2004                              $516,494             $25,025                                 $491,469
Fiscal Year 2003                              $178,625                   $0                                $178,625
Total Questioned Costs                      $1,476,909             $79,038                               $1,397,871
1
  Subcontractor billing errors identified by Internal Audit during its FY 2010 quarterly audits of The American
Recovery and Reinvestment Act of 2009 funded activities at Los Alamos.
2
  Subcontractor billing errors identified by Internal Audit during its audit of Internal Controls Over Subcontractor
Payments, issued September 2011.

                                                          5
                                                                                              Attachment 2

Summary of Questioned Costs, Unresolved Costs, and Unresolved Costs Pending Audit
                                   Fiscal Year 2010
                         Los Alamos National Security, LLC
                         Contract No. DE-AC52-06NA25396


                    WMRM Potential Anti-Deficiency Act Violation Costs
                                 Potential ADA
          Fiscal Year            Violation Costs           Resolved                           Unresolved
Fiscal Year 2010                          $1,769,138                  $0                        $1,769,138
Fiscal Year 2009                          $6,947,510                  $0                        $6,947,510
Fiscal Year 2008                          $1,982,353                  $0                        $1,982,353
Total ADA Costs                          $10,699,001                  $0                       $10,699,001




                      Prior Year Questioned and/or Unresolved Costs
                                                   Pending
                                  Questioned        Review
       Cost Category                Costs          or Audit     Resolved    Unresolved
ASM's Subcontract Reviews                        $165,092,842           $0 $165,092,842
FY 2007 Subcontracts Requiring
Audit3                                           $271,982,318   $4,881,051 $267,101,267
Subtotal Previously Reported
  Subcontract Costs                                                $437,075,160   $4,881,051 $432,194,109
FY 2007 Questioned Subcontract
Costs4                                               $55,487                             $0         $55,487
FY 2008 and 2009 Questioned
Costs                                            $1,954,308                         $56,775      $1,897,533
Subtotal Previously Reported
  Questioned Costs                               $2,009,795                          $56,775   $1,953,020
Total Prior Year Costs                           $2,009,795        $437,075,160   $4,937,826 $434,147,129




3
    These costs are unresolved pending review by Internal Audit.
4
    These costs are unresolved pending audit by Internal Audit.

                                                            6
    Attachment 3




7
    Attachment 3 (continued)




8
    Attachment 4




9
                                                                    IG Report No. OAS-L-13-02

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                       http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
